Press Release  Office of the Inspector General | Smithsonian
Skip navigation
Explore
About Us
Mission & Vision
Our History
Encyclopedia Smithsonian
Art & Design
History & Culture
Science & Technology
Visit
Overview
Hours
Maps & Directions
Floor Plans
Dining
Visiting with Kids
Visiting with Groups
Get Involved
Overview
Volunteer
Giving
Membership
Docents
Citizen Science
Host an Event
Connect
Overview
Blogs
Facebook
Flickr
Google+
Instagram
Mobile
Pinterest
Podcasts
Tumblr
Twitter
YouTube
Virtual World
Educators
Kids
Researchers
Volunteers
Members
Fellows/Interns
Home
Museums and Zoo
Research Centers
Cultural Centers
Exhibitions
Events
Collections
Newsroom
Home » Office
of the Inspector General
Parking Lot Manager Pleads Guilty to Conspiring to Steal Approximately $1.4 million in Parking Fees From Smithsonian Museum
U.S. Attorney’s Office
April 19, 2013
Eastern District of Virginia
(703) 299-3700
Abeselom Hailemariam, 33, of Alexandria, Va., pleaded guilty today for his participation in a conspiracy to steal approximately $1.4 million of visitor parking fees when he was employed by Parking Management, Inc., (PMI), the company contracted to manage parking services at the Smithsonian Institution’s Steven F. Udvar-Hazy Center in Chantilly, Va.
Neil H. MacBride, United States Attorney for the Eastern District of Virginia; Scott S. Dahl, Inspector General for the Smithsonian Institution; and Valerie Parlave, Assistant Director in Charge of the FBI Washington Field Office, made the announcement after the plea was accepted by United States District Judge T.S. Ellis, III.
The plea follows Hailemariam’s March 5, 2013, arrest at Dulles International Airport by agents of the Smithsonian Office of Inspector General and Federal Bureau of Investigation. Hailemariam faces a maximum penalty of five years in prison when he is sentenced on July 19, 2013.
Hailemariam was a full-time location manager for PMI, which managed the 2,000-vehicle parking lot at the Udvar-Hazy Center.  Between March 2009 and July 2012, Hailemariam supervised the PMI booth attendants at the location, accounted for revenues from visitor vehicles that entered the parking lot, and submitted operations reports to PMI and the Smithsonian.  Over the course of three years, Hailemariam and several booth attendants at the site conspired to steal cash entrance fees paid by tens of thousands of museum visitors.  With Hailemariam’s knowledge and approval, the booth attendants withheld parking ticket stubs from paying customers and unplugged electronic vehicle counters in the entrance booths.  At the end of each shift, these attendants would submit false shift summary report to Hailemariam that under-reported the number of vehicles which had entered the parking lot.  Hailemariam compiled the fraudulent data and submitted falsified reports to PMI, which were provided to the Smithsonian.  Some of the booth attendants paid Hailemariam a share of the stolen revenues at the end of the day by bundling unreported cash with the shift summary reports.  Hailemariam also gave instructions to conspiring booth attendants to stop stealing at certain times when the co-conspirators believed the risk of detection of the conspiracy was high.  The total loss due to the conspiracy is at least $1,383,195.  Based on the $15 entrance fee, it is estimated that Hailemariam participated in a conspiracy that stole from at least 92,213 visitor vehicles over the course of the crime.
Prior to today’s guilty plea, former PMI employees Meseret Terefe, 37, of Silver Spring, Md. and Freweyni Mebrahtu, 46, of Sterling, Va., were also convicted and have been sentenced to 20 months and 27 months in prison, respectively, for their roles in the thefts.
The investigation was initiated by the Smithsonian Office of the Inspector General and jointly investigated with the Federal Bureau of Investigation.  Assistant United States Attorney Jasmine Yoon and Special Assistant United States Attorney James McDonald are prosecuting the case on behalf of the United States.
A copy of this press release may be found on the website of the United States Attorney’s Office for the Eastern District of Virginia at  http://www.usdoj.gov/usao/vae.
Mobile Site |
Contact Us |
FAQs |
About Us |
E-News |
Employment |
Site Map
Privacy |
Terms of Use |
Administration |
Governance |
Policies & Reports |
Accessibility
Records Requests |
Inspector General |
General Counsel |
Supplier Diversity and EEO
Page Last Modified: 4/19/2013